Visa Credit Card
Agreement

1.
INTRODUCTION.
This VISA Credit Card Agreement (Agreement) and the Account
Disclosures accompanying this Agreement will govern your Platinum
VISA or Platinum VISA with Rewards account issued by OnPoint
Community Credit Union. In this Agreement the words “you,” “your,”
“yours,” “applicant,” and “Borrowers” mean any person who signs the
application for this Account, any joint obligor, guarantor, or the
person whose name is embossed on the Card. The words “we,”
“our,” and “OnPoint” means OnPoint Community Credit Union. The
word “Card” means any one or more credit cards issued under
OnPoint’s Platinum VISA or Platinum VISA with Rewards program.
Except as otherwise specified in this Agreement, all terms and
conditions of this Agreement apply to any Card issued under any
of the above-referenced programs. If you sign a written or
online application for this Account or sign or use any Card or
PIN, or allow others to use the Card or PIN, you and they will
have accepted this Agreement just as if you and they signed
it, and you and they, jointly and severally, will be bound by the
following terms and conditions which will govern this Account.
2.
ACCOUNT ACCESS.
A.
Purchases and Cash Advances. You must sign the Card
to use it. Once you have signed the Card, you can use it to make
purchase, cash advance and balance transfer transactions up to
the full amount of your credit line. You may use your Account to get
cash advances from OnPoint. You may also use your Card to get a
cash advance from participating financial institutions or automated
teller machines (ATMs). You may use your Card to purchase goods
and services any place your Card is honored by participating
merchants. No purchase amount may exceed the available funds
in your account. Only credit card balance transfers you make from
another institution will be permitted and treated as a cash advance.
OnPoint reserves the right to refuse any transaction that would draw
upon insufficient funds.
1

B.
VISA Convenience Checks. If we approve, you may
obtain advances under your Account by writing preprinted VISA
convenience loan checks that we supply to you. Your use of loan
checks will be shown as cash advances on your monthly statement.
We may not honor your loan check if: your check is post-dated;
payment of the check would exceed your credit limit; a check is
signed by a person without authorized access; the amount of the
check is less than the minimum required amount; your Account has
been terminated or suspended, or any drafts have been reported
lost or stolen. You may stop payment on a loan check if you provide
OnPoint with the exact information describing the check. If you
give OnPoint incorrect information, we will not be responsible for
failing to stop payment. You understand there may be a charge
for each stop payment order requested. Our liability for a wrongful
dishonor is limited to your actual charges, however, a dishonor
for the reasons stated above is not a wrongful dishonor. Only the
person whose name is printed on a convenience check may sign
it. All convenience checks must be written in U.S. dollars. We will
not certify a convenience check. You may write these checks for
any amount providing your total outstanding balance does not
exceed your available credit limit and your credit card remains in
good standing. We are entitled to return it unpaid if there is not
enough available credit on your account to pay it, if you are in
default under this Agreement, if your card or convenience checks
have been reported lost or stolen, or if the convenience check is
post-dated. Over-limit fees will be charged as applicable. A VISA
convenience check may not be used to make a payment on your
Account. OnPoint shall have no liability for any convenience check
returned in excess of your credit line.
C.
Overdraft Advances. In the event we have approved overdraft
protection for you, for any overdrafts on a savings or checking
account of yours, we will treat the overdraft as a request for a cash
advance on your credit line and we will transfer this amount to your
overdrawn account. For purposes of this Agreement, an overdraft
advance will be treated as a cash advance.
3.
YOU PROMISE TO PAY.
You promise to pay OnPoint all such amounts, plus any Interest
Charges, which arise from use of the Card or Account by you or
any other person, and to be jointly and severally liable with such a
person, unless such other person does not have actual, implied, or
apparent authority for such use, and you received no benefit from
the use. You promise to pay OnPoint either by direct payment or by
automatic transfers from savings or checking.
4.
CREDIT LINE.
This Agreement will constitute a revolving line of credit for an
amount, which will be the credit line under your Account. You may
access your credit line through Card purchases, cash advances at
participating merchants and loan checks. We will advise you of the
amount of your credit line on your statement. That amount will be
the maximum amount you may have outstanding at any one time.
You agree not to attempt to obtain more credit than the amount of
your credit line. We retain the right to increase or decrease your
credit line at any time for any reason. Any increase or reduction on
the limit of your credit line will be shown on your monthly statement
2

or by separate notice together with any changes in the applicable
minimum monthly payments. Your eligibility for this credit line is
determined by our loan policy and may be terminated at our sole
discretion, without demand or notice. You may close your credit line
at any time by notifying OnPoint in writing and returning all Cards cut
in half. If you terminate this Agreement or if we terminate or suspend
your credit privileges, the provisions of this Agreement and your
liability hereunder shall otherwise remain in full force and effect until
you have paid OnPoint all sums due OnPoint under this Agreement
and returned all Cards.
5.
MINIMUM MONTHLY PAYMENT.
You agree that you will pay each month not less than the minimum
monthly payment on or before the scheduled monthly due date.
The minimum monthly payment will be 2% of your outstanding
balance (“New Balance”) or $10.00, whichever is greater. If your
outstanding balance is $10.00 or less, you agree to pay the
balance in full. The total minimum payment due each month is the
minimum monthly payment, any amounts past due and any overlimit
amounts. You may pay in full for all your purchases and cash
advances each month, or you may repay in monthly installments.
We can accept late payments or partial payments, or checks,
drafts, or money orders marked “payment in full” without prejudice
to our rights under this Agreement, which are hereby explicitly
reserved. A credit posting from a merchant or reversal of fees do
not constitute a minimum monthly payment. Your payments may
be allocated at the Credit Union’s discretion to pay off lower rate
balances, such as promotional offers, before higher rate balances,
such as cash advances or purchases. Payments in excess of the
minimum payment will be allocated first to higher rate balances,
as applicable. From time to time, we may allow you to skip your
minimum monthly payment due. If you choose to skip that payment,
Interest Charges will continue to accrue in accordance with this
Agreement. Payments received at: OnPoint Community Credit
Union, PO Box 31112, Tampa, FL 33631-3279 at or before 5:00 PM
Eastern Time on any business day will be credited to your Account
as of that date; payments received by mail at that address after 5:00
PM Eastern Time, on a weekend or federal holiday will be posted to
your Account as of the next business day. Payment crediting to your
Account may be delayed up to five days if your payment is received
by mail at any other address or not accompanied by the remittance
portion of your Account statement.
6.
SECURITY INTEREST.
You grant OnPoint a security interest under the Oregon Uniform
Commercial Code in any goods purchased with your Card. You
agree that all collateral you have given OnPoint to secure other
consumer loan obligations except dwelling-secured loans, in
the past and in the future, will secure your obligations
under this Agreement.
In addition, by signing the Card
Application, you have given OnPoint a security interest in all your
deposits, present and future, and all accounts (except Individual
Retirement Accounts) with OnPoint. You agree, upon default,
OnPoint may apply all that is secured to pay any amounts due
under this Agreement, without further notice to you. You also agree
that cross-collateralization is a condition of receiving your card.
3

7.
MONTHLY STATEMENTS.
Each month we will send you a statement showing purchases, cash
advances, payments, and credits made to your Account during the
billing cycle, as well as your “New Balance,” any Interest Charge and
any late charge or other charges. Your statement also will identify the
minimum monthly payment you must make for that billing period and
the date it is due. You agree to retain for statement verification copies
of transaction slips resulting from each purchase, each advance, and
other transactions on your Account. Unless you notify OnPoint of a
billing error as described below, you accept your monthly statement
as an accurate statement of your Account with OnPoint.
8.

CIRCUMSTANCES UNDER WHICH AN INTEREST
CHARGE WILL BE IMPOSED.
The total outstanding balance of purchases and cash advances in
the Account on the closing date of a billing cycle, including any fees
and Interest Charges will be shown on the Periodic Statement for
that billing cycle as the “New Balance.”
A.
Cash Advances and Balance Transfers. An Interest Charge
will be imposed on cash advances (including balance transfers,
convenience check advances and overdraft advances) from the
date each cash advance is made or the first date of the billing cycle
in which the cash advance is posted, whichever is later, until such
advances are paid. There is no time period within which to pay
to avoid a periodic Interest Charge on cash advances, including
balance transfers and convenience check cash advances.
B.
Purchases. An Interest Charge will be imposed on the portion
of purchases included in the new balance that remains unpaid 25
days after the closing date. This “grace period” allows you to avoid
an Interest Charge on purchases for a billing cycle. However, to the
extent you do not pay your purchase transactions from the previous
billing cycle within the grace period, your Interest Charge will accrue
from the date purchases are posted to your account.
9.

METHOD USED TO DETERMINE THE BALANCE ON
WHICH THE INTEREST CHARGE MAY BE COMPUTED
AND AMOUNT OF INTEREST CHARGE.
We figure the Interest Charge on your Account by applying the
Periodic Rate to the “Average Daily Balance” of the account
including current purchases and cash advances for your Account.
To get the “Average Daily Balance” we take the beginning purchase
and cash advance balances of your Account each day, add any
new purchases and cash advances and subtract any payments
or credits, unpaid Interest Charges and unpaid late charges. The
Interest Charge is determined by multiplying the average daily
balance by the number of days in the billing cycle and applying the
Periodic Rate to that amount. No Interest Charge is imposed on
purchases to the extent payments and credits for purchases are
made within 25 days of the closing date of the previous billing cycle.
The “Total Interest Charge” shown on your monthly statement
consists of the periodic Interest Charge on purchases and the
periodic Interest Charge on cash advances.

4

10.

PERIODIC RATE AND CORRESPONDING ANNUAL
PERCENTAGE RATE (VARIABLE).
A.
Standard Rates. To obtain the Periodic Rate, we divide the
Annual Percentage Rate by 365. The Annual Percentage Rate may
change as of the first day of each billing cycle, based on an index
which is The Wall Street Journal Western Edition Prime Rate as of
the 10th day of the month (or next business day if the 10th falls on
a weekend), plus a margin. If the Prime Rate changes on the 10th
day of the month, the change will be effective on the 1st day of your
next billing cycle following the change. The margin for your Account
depends on your credit profile and will be set forth in the Account
Disclosure that is provided when your Account is opened, and is
incorporated in this Agreement.
B.
Introductory or Promotional Rates. At our discretion, we
may offer you an introductory or promotional Annual Percentage
Rate for your Account. Any introductory or promotional Annual
Percentage Rate will be subject to the terms of the offer and this
Agreement. We will provide you with information on the offer,
including the time period the introductory or promotional Annual
Percentage Rate is in effect in the Account Disclosure when you
open your Account or in other materials that we send to you about
the offer after you receive your Credit Card.
C.
Default Rate. In the event you are in default of this Agreement,
or if you have more than one late payment in twelve (12) months,
the Annual Percentage Rate on your entire outstanding balance
will be increased by 3.00% above your current variable Annual
Percentage Rate on the first day of the new billing cycle following
the late payment or notice of default and will continue until you have
six (6) months without any late or insufficient minimum payments or
you satisfy the default condition.
11.

CONDITIONS UNDER WHICH OTHER CHARGES MAY BE
IMPOSED.
We may impose the following fees and charges on your Account:
A.
Late Fee. If we do not receive your minimum payment within
3 days of the due date, we may impose a Late Fee of $25.00
(balances greater than $1000); $20 (balances $100-$1000); $10
(balances $99 or less). If you have more than one late payment
in twelve (12) months, your account may be subject to a default
Annual Percentage Rate as set forth above.
B.
Returned Item Fee. If any check we receive from you as
payment on your Account is returned to OnPoint unpaid or for any
convenience check drawn on your Account that is returned unpaid,
we may impose a Returned Item Fee of $25.00.
C.
Card Replacement Fee. We may impose a $5.00 card
replacement fee for each VISA card, which is lost, stolen, or damaged.
D.
Annual Fee. There is no annual fee for use of your Card and
account.
E.
Miscellaneous Photocopying. If you request a copy of a
sales draft or other document, we may charge your Account $2.00
per copy and $25.00 per hour. These charges cover the costs of
5

locating, copying, and delivering the documents to you. If a request
is related to a billing error and an error is found, we will reverse any
photocopying charges.
F.
ATM Fees. If you use an ATM to obtain a cash advance and
the ATM is not operated by OnPoint, you may be charged an ATM
surcharge by the ATM operator or an ATM network utilized for such
a transaction. The ATM surcharge may be charged to your account
if you complete the transaction.
G.
Attorney’s Fees and Costs. If you default on any part of
this Agreement, you agree to pay OnPoint all costs to collect your
Account, including court costs and reasonable attorney fees and
collection agency costs whether or not there is a lawsuit, and fees
on any appeal and fees for bankruptcy proceedings, appeals, and
any post judgment collection services, if applicable.
12. CONDITIONS OF CARD USE.
The use of your Card and Account are subject to the following
conditions:
A.
Ownership of Cards. Any Card or other credit instrument or
device which we supply to you is our property and must be returned
to OnPoint, or to any person whom we authorize to act as our agent,
or to any person who is authorized to honor the Card, immediately
according to instructions. The Card may be repossessed at any
time at our sole discretion without demand or notice. You cannot
transfer your Card or Account to another person. You may not use
the Card for any illegal or unlawful transactions and we may decline
to authorize any transaction that we believe poses an undue risk of
illegality or unlawfulness.
B.
Honoring the Card. Neither we nor merchants authorized to
honor the Card will be responsible for the failure or refusal to honor
the Card or any other credit instrument or device we supply to you.
If a merchant agrees to give you a refund or adjustment, you agree
to accept a credit to your Account in lieu of a cash refund.
C.
Currency Conversion/Foreign Transaction Fee. Purchases
and cash advances made in foreign countries will be billed to you
in U.S. dollars. The currency conversion rate for international
transactions as established by VISA International, Inc. is a rate
selected by VISA from the range of rates available in wholesale
currency markets for the applicable central processing date, which
rate may vary from the rate VISA itself receives, or the governmentmandated rate in effect for the applicable central processing date. In
addition, you will be charged a Foreign Transaction Fee of 1% of the
transaction amount for any card transaction made in a foreign country.
D.
Notices and Payments. All notices will be sent to your
address as shown on your OnPoint account. You agree to advise
OnPoint promptly if you change your mailing address. All payments
should be mailed to OnPoint at the remittance address shown on
your monthly statements. Payments received at that address will be
credited to your Account as of the date received.
E.

Security of Access Code. The personal identification number
6

(PIN) or access code that you select is for your security purposes.
The access code is confidential and should not be disclosed to third
parties or recorded. You are responsible for safekeeping your access
code. You agree not to disclose or otherwise make your access code
available to anyone not authorized to sign on your accounts. If you
authorize anyone to have or use your access code, you understand
that person may review all of your account information and make
account transactions. Therefore, we are entitled to act on transaction
instructions received using your access code and you agree that the
use of your access code will have the same effect as your signature
authorizing transactions. If you authorize anyone to use your access
code in any manner that authority will be considered unlimited in
amount and manner until you specifically revoke such authority by
notifying OnPoint and changing your access code immediately. You
are responsible for any transactions made by such persons until you
notify OnPoint that transactions and access by that person are no
longer authorized and your access code is changed. If you fail to
maintain or change the security of these access codes and OnPoint
suffers a loss, we may terminate your electronic funds transfer and
account services immediately.
13. DEFAULT.
You will be in default under this Agreement if any of the following
occur: (a) Any minimum monthly payment is not made when due;
(b) You become insolvent, bankrupt, or you die; (c) You violate any
part of this Agreement, or any other agreement with OnPoint; or (d)
if we reasonably deem ourselves insecure on your credit line. We
will notify you in writing of any such action as soon as practical if it
occurs. Upon default, we may declare the entire unpaid balance
immediately due and payable, and you agree to pay that amount
plus any attorney’s fees and costs including collection agency costs
incurred by OnPoint. We can delay enforcing any right under this
Agreement without losing that right or any other right. A negative
credit report reflecting on your credit record may be submitted to a
credit-reporting agency if you fail to fulfill the terms of this Agreement.
14. CREDIT INFORMATION/FINANCIAL STATEMENTS.
You authorize OnPoint to release information to others (e.g., credit
bureaus, merchants, and other financial institutions) regarding the
status and history of your credit line. You agree to provide OnPoint,
at any time we deem necessary, with a current financial statement
and updated credit information upon request. We may investigate
your credit directly or through a credit reporting agency.
15. UNAUTHORIZED USE, LOSS OR THEFT OF CREDIT CARD
You agree to notify OnPoint immediately of the loss, or the theft,
or the use without your permission, of any Card or other credit
instrument or device, which we supply to you. You may be liable for
the unauthorized use of your Card. You will need to notify: OnPoint
Community Credit Union at PO Box 31112, Tampa, FL 33631-3112
or by telephone at 1-866-820-3101 orally or in writing of loss, theft,
or possible unauthorized use. If you notify OnPoint of your lost or
stolen Credit Card after discovery, you may not be liable for any
losses related to credit transactions. This zero liability will apply
provided you were not grossly negligent or fraudulent in handling
your Card; otherwise your liability for unauthorized VISA Credit Card
transactions shall not exceed $50.
7

16. YOUR CREDIT CARD BILLING RIGHTS
Keep this document for future use. This notice tells you about your
rights and our responsibilities under the Fair Credit Billing Act.
A.
What to do if you find a mistake on your statement. If you
think there is an error on your statement, write to us at: OnPoint
Community Credit Union, P.O. Box 31112, Tampa, FL 33631-3279.
In your letter, give us the following information:
•
Account information: Your name and account number.
•
Dollar amount: The dollar amount of the suspected error.
•
Description of problem: If you think there is an error on your
bill, describe what you believe is wrong and why you believe it is a
mistake.
You must contact us:
•
Within 60 days after the error appeared on your statement.
•
At least 3 business days before an automated payment is
scheduled, if you want to stop payment on the amount you think is
wrong.
You must notify us of any potential errors in writing . You may call us,
but if you do we are not required to investigate any potential errors
and you may have to pay the amount in question.
B.
What will happen after we receive your letter. When we
receive your letter, we must do two things:
1.
Within 30 days of receiving your letter, we must tell you that
we received your letter. We will also tell you if we have already
corrected the error.
2.
Within 90 days of receiving your letter, we must either correct
the error or explain to you why we believe the bill is correct.
While we investigate whether or not there has been an error:
•
We cannot try to collect the amount in question, or report you
as delinquent on that amount.
•
The charge in question may remain on your statement, and
we may continue to charge you interest on that amount.
•
While you do not have to pay the amount in question, you are
responsible for the remainder of your balance.
•
We can apply any unpaid amount against your credit limit.
After we finish our investigation, one of two things will happen:
•
If we made a mistake: You will not have to pay the amount in
question or any interest or other fees related to that amount.
•
If we do not believe there was a mistake: You will have to
pay the amount in question, along with applicable interest and fees.
We will send you a statement of the amount you owe and the date
payment is due. We may then report you as delinquent if you do not
pay the amount we think you owe.
If you receive our explanation but still believe your bill is wrong, you
must write to us within 10 days telling us that you still refuse to pay. If
you do so, we cannot report you as delinquent without also reporting
that you are questioning your bill. We must tell you the name of
anyone to whom we reported you as delinquent, and we must let
those organizations know when the matter has been settled between
us. If we do not follow all of the rules above, you do not have to pay
the first $50 of the amount you question even if your bill is correct.
8

C.
Your rights if you are dissatisfied with your credit card
purchases. If you are dissatisfied with the goods or services that
you have purchased with your credit card, and you have tried in
good faith to correct the problem with the merchant, you may have
the right not to pay the remaining amount due on the purchase. To
use this right, all of the following must be true:
1.
The purchase must have been made in your home state or
within 100 miles of your current mailing address, and the purchase
price must have been more than $50. (Note: Neither of these are
necessary if your purchase was based on an advertisement we mailed
to you, or if we own the company that sold you the goods or services.)
2.
You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or with a check
that accesses your credit card account do not qualify.
3.
You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied with
the purchase, contact us in writing at the above address. While
we investigate, the same rules apply to the disputed amount as
discussed above. After we finish our investigation, we will tell you
our decision. At that point, if we think you owe an amount and you
do not pay, we may report you as delinquent.
17. AMENDMENTS.
We reserve the right to amend the terms of this Agreement at
any time as permitted by and subject to any limitations and notice
requirements of applicable law.
18. GOVERNING LAW.
This Agreement will not take effect until it is approved by OnPoint.
This Agreement shall be governed by the laws of the State of Oregon.
19. NOTICE AND AGREEMENT.
You understand and agree to the terms and conditions in this VISA
Credit Card Agreement. You acknowledge that you have received
a copy of the Agreement. This Agreement is a final expression of
the agreement between you and OnPoint. This Agreement may not
be contradicted by evidence of any oral agreement or alleged oral
agreement and contains the terms applicable to the credit transaction.
20. REWARDS.
Features are subject to Terms and Conditions posted at
www.curewards.com.

MILITARY LENDING DISCLOSURE

This Military Lending Disclosure is issued pursuant to and amends
your Visa Credit Card Agreement and Account Disclosures as
described below:
A.
Borrower Certification of Active Duty. By requesting a
Credit Card each borrower certifies to the Credit Union that borrower:
(i) is a Covered member as a member of the Armed Forces who
is currently serving on active duty (under a call or order not less
than 30 days) Active Guard or Reserve duty; and (ii) borrower is
the Covered Member or is a dependent of the Covered Member.
Borrower(s) authorize the Credit Union to verify their status as a
Covered Member or dependent by obtaining information from the
9

database of the Department of Defense or from a consumer report
obtained from a consumer reporting agency.
B.
Military Annual Percentage Rate. Federal law provides
important protections to members of the Armed Forces and their
dependents relating to extensions of consumer credit. In general,
the cost of consumer credit to a member of the Armed Forces and
his or her dependent may not exceed an annual percentage rate of
36%. This rate must include, as applicable to the credit transaction or
account: the costs associated with credit insurance premiums; fees
for ancillary products sold in connection with the credit transaction;
any application fee charged (other than certain application fees for
a credit card account); and any participation fee charged (other than
certain participation fees for a credit card account).
C.
Payment Obligation. Your payment obligation under your
Credit Card Account is set forth in Sec. 5 in the Visa Credit Card
Agreement.
D.
Security Interest. The Credit Union’s security interest in all
your Credit Union shares or deposits pursuant to the Credit Card
Agreement will not apply your Credit Card Account. A security
interest in shares or deposits granted in connection with any other
credit card account, loan or line of credit does not secure the Credit
securing one loan secures all of your other Credit Union obligations.
connection with your Credit Card Account, funds deposited in that
account after you establish the Credit Card Account are subject
to our security interest as set forth above in the Visa Credit Card
Agreement.
E.
Credit Union Toll-Free Telephone Number. Call 1-800-5273932 for verbal information about the Military Annual Percentage
Rate and your payment obligation.

4/19

10

M-128051

